2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

LE

ga Ck Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

PENNEAST PIPELINE COMPANY, LLC, PETITIONER,
v.
STATE OF NEW JERSEY, ET AL.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of March, 2021, send out
from Omaha, NE 4 package(s) containing * copies of the BRIEF FOR THE CHAMBER OF COMMERCE OF THE
UNITED STATES OF AMERICA AND THE PENNSYLVANIA CHAMBER OF BUSINESS AND INDUSTRY AS AMICI
CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by

third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
DARYL JOSEFFER DEANNE E. MAYNARD
MICHAEL B. SCHON, Counsel of Record
U.S. CHAMBER MORRISON & FOERSTER LLP
LITIGATION CENTER 2100 L Street, NW,
1615 H Street, NW Suite 900
Washington, DC 20062 Washington, DC 20037
(202) 463-5948 (202) 887-8740

DMaynard@mofo.com
Counsel for Chamber
of Commerce of the JAMES R. SIGEL
United States of America MORRISON & FOERSTER LLP.
425 Market Street
San Francisco, CA 94105

Counsel for Amici Curiae

Subscribed and sworn to before me this 8th day of March, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

     
 

GENERAL NOTARY-State of Nebraska
i RENEE J. GOSS
My Comm. Exp. September 5, 2023

 
 

ose Ondiaw-h. Ble

 

  

Notary Public Affiant

40680
Service List

Counsel of Record for Petitioner PennEast Pipeline Company, LLC:
Paul D. Clement

Kirkland & Ellis LLP

1301 Pennsylvania Avenue, NW

Washington, DC 20004

Tel. 202-389-5000

paul.clement@kirkland.com

(3 copies)

Counsel of Record for Respondents State of New Jersey; NJ Department of
Environmental Protection, et al.:

Jeremy Michael Feigenbaum

Office of the New Jersey Attorney General

25 Market Street

Trenton, NJ 08611

Tel. 609-376-2690

jeremy.feigenbaum@njoag.gov

(3 copies)

Counsel of Record for Respondent New Jersey Conservation Foundation:
Matthew Littleton

Donahue, Goldberg, Weaver & Littleton

1008 Pennsylvania Ave SE

Washington, DC 20003

Tel. 202-683-6895

matt@donahuegoldberg.com

(3 copies)

Counsel for Respondent New Jersey Conservation Foundation:
Edward Lloyd

Jennifer Lynn Danis

Morningside Heights Legal Services, Inc.
Columbia Law School

435 West 116th Street

New York, NY 10027

Tel. 973-495-3774
elloyd@law.columbia.edu
jld2228@columbia.edu

(1 copy)
